                                        TVA REST
                                               TRICTED INF
                                                         FORMATION




Mem
  morandum from
              m the Office of th
                               he Inspector Ge
                                             eneral



Ma
 arch 22, 2012
             2

Jos
  seph J. Hoag
             gland, WT 7B-K
                       7

RE
 EQUEST FOR FINAL AC
                   CTION – AUDIT 2010-13
                                       3659 – DIST
                                                 TRIBUTOR A
                                                          AUDIT OF
ME       R LEWIS ELECTRIC CO
 ERIWETHER                  OOPERATIV  VE



Atta
   ached is the
              e subject fina
                           al report for your
                                         y     review and action. Your written commentss,
which addresse ed your man nagement de   ecision and a
                                                     actions plannned or taken
                                                                             n, have been
                                                                                        n
included in the report. Plea
                           ase notify us s when final action is complete.

Info
   ormation con
              ntained in th
                          his report ma ay be subjecct to public disclosure. P
                                                                             Please advisse us
of any
   a sensitivee informationn in this repo
                                        ort that you rrecommend be withheld  d.

If you
   y have any    y questions or                       ndings, plea
                              o wish to discuss our fin          ase contact m
                                                                             me at
(8665) 633-7373  3 or Richard C. Underwo ood, Directo r, Corporate
                                                                 e Governancce and Finannce
Aud dits, at (423) 785-4824. We apprec  ciate the cou rtesy and co
                                                                 ooperation re
                                                                             eceived from
                                                                                        m
youur staff durin
                ng the audit.



David P. Wheeeler
Deputy Assista
             ant Inspectorr General
 (A
  Audits)
ET 3C-K

MMMN:HAC
Atta
   achment
cc (Attachmentt):
      D. Lynn Dabney,
              D         OCP 1B-NST                              Robeert A. Morriss, WT 7C-K
      Micheal B.
              B Fussell, WT
                          W 9B-K                                Ronaald L. Owenss, SP 3A-C
      Kimberly S. Greene, WT 7B-K                               Emilyy J. Reynoldds, OCP 1L-NST
      Peyton T. Hairston, Jr.,
                          J WT 7B-K K                           John
                                                                   n M. Thomass III, MR 6D--C
      Cynthia L.
              L Herron, OC CP 1B-NST                            Van M. Wardlaw w, OCP 1N-N  NST
      James D.. Keiffer, OC
                          CP 1F-NST                             Robeert B. Wells, WT 9B-K
      Tom Kilgoore, WT 7B--K                                    OIG File No. 201 10-13659
      Richard W.
              W Moore, ET 4C-K




      WARNING: This document is       s FOR OFFICIAL   L USE ONLY. Itt is to be controlleled, stored, hand
                                                                                                         dled, transmitted,
       distributed, and
                    a disposed of in accordance with w TVA policy re    elating to Informa
                                                                                         ation Security. T
                                                                                                         This information
               is no
                   ot to be further dis
                                      stributed withoutt prior approval o
                                                                        of the Inspector G
                                                                                         General or his de
                                                                                                         esignee.

                                        TVA REST
                                               TRICTED INF
                                                         FORMATION
 


        
                              TVA RESTRICTED INFORMATION


                                                                                Audit Report
 
Office
      of the Inspector General                                                                                                 

                                                                    To the Senior Vice President,
                                                                    Policy and Oversight           
                                                                     
                                                                                                                               

 

 

 

 

 

DISTRIBUTOR AUDIT OF
 


MERIWETHER LEWIS
 



ELECTRIC COOPERATIVE
 

 




 

 
 
 

 
Audit Team                                                                                                     Audit 2010-13659
Melissa M. Neusel                                                                                                March 22, 2012
Jessica L. Monroe
Andrea L. Williams
            WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
            distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                    is not to be further distributed without prior approval of the Inspector General or his designee. 


                            TVA RESTRICTED INFORMATION
Office of the Inspector General                                    Audit Report




ACRONYMS AND ABBREVIATIONS
FY                         Fiscal Year
kW                         Kilowatt
kWh                        Kilowatt Hours
MLEC                       Meriwether Lewis Electric Cooperative
MW                         Megawatt
OIG                        Office of the Inspector General
TVA                        Tennessee Valley Authority




Audit 2010-13659

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

FINDINGS ......................................................................................................... 3
   USE OF ELECTRIC REVENUE FOR UNAPPROVED PURPOSES ................ 4

   IMPROPER REPORTING OF ELECTRIC SALES AND/OR
   POTENTIAL DISCRIMINATION IN PROVIDING POWER TO
   CUSTOMERS................................................................................................... 5

   OTHER ISSUES ............................................................................................... 8

   TVA OVERSIGHT OPPORTUNITIES .............................................................. 9

RECOMMENDATIONS .................................................................................. 9


APPENDICES
A. OBJECTIVE, SCOPE, AND METHODOLOGY

B. LETTER DATED MARCH 9, 2012, FROM HAL WOMBLE TO DAVID P.
   WHEELER

C. MEMORANDUM DATED MARCH 6, 2012, FROM CYNTHIA L. HERRON TO
   DAVID P. WHEELER




Audit 2010-13659

                                      TVA RESTRICTED INFORMATION
                  Audit
                  A     201
                          10-13659 – Distributor Aud
                                                   dit of Meriiwether
                             Lewis Electric Cooperaative
                                       EXE
                                         ECUTIVE S
                                                 SUMMAR
                                                      RY

Why the OIG Did
              d This Aud
                       dit

  In 2002,
     2      the Teennessee Va  alley Authoritty’s (TVA) BBoard of Dire  ectors approvved and made
  avaailable to distributors six wholesale power
                                             p       contra
                                                          act flexibility options. Onne of the options
  term
     minated TVA  A’s contract authority and obligationss regarding distributors’ retail rates.
  Fouur distributorrs (Meriwethher Lewis Ele ectric Coope erative [MLE  EC], Knoxville
                                                                                     e Utilities Bo
                                                                                                  oard,
  Memphis Light,, Gas and Water,
                               W       and Sc cottsboro El ectric Powe  er Board) selected this
  option. Althoug  gh each of thhese four disstributors haas the authorrity to determ
                                                                                    mine the reta ail
     es it will charge to its cus
  rate                          stomers with h limited or n
                                                          no oversightt by TVA, the  e TVA Board  d did
  not relinquish itts responsibility to ensurre (1) the po
                                                         ower purchassed is sold a  and distribute ed to
  the ultimate con nsumer with hout discrimination amon   ng consumers of the sam   me class, an  nd
  (2) no discriminnatory rate, rebate,
                                r        or other special cconcession will be made   e or given too any
  connsumer.

  Thee supplemen ntal agreeme  ent between n TVA and M  MLEC becam   me effective iin 2004. As part
  of our
     o annual audit
                a      plan, th
                              he OIG (Officce of the Ins pector Gene  eral) auditedd the electricc
  sysstem of MLEC, a distribu utor based inn Centerville , Tennessee  e, for compliance with th  he
  TVA A power conntract for the
                              e audit periodd July 2008 through Jun   ne 2010. Ke  ey contract
  pro
    ovisions inclu
                 uded (1) proper reporting  g of electric sales, (2) no
                                                                      ondiscrimina  ation in providing
  powwer, and (3) use of electtric revenue for approved   d purposes. For fiscal yyear (FY) 20  010,
  MLEC provided  d power to approximatel
                              a              y 35,000 cu stomers ressulting in elecctric sales
    venue of app
  rev           proximately $69
                              $ million to  o MLEC. Att June 30, 20   010, MLEC had a
  5.17 percent caash ratio beffore considering planned   d FY 2011 ccapital expen  nditures, whiich is
     hin TVA’s es
  with           stablished gu uidelines forr adequate ccash ratios o of 5 to 8 perccent.

What the OIG Fo
              ound

  MLEC was not in compliance with one of the key ccontract provvisions but ggenerally
  commplied with the
                 t other two
                           o provisions. Additional ly, we identified a few otther minor
  issu
     ues regardinng MLEC’s customer
                           c         con
                                       ntract docum
                                                  mentation an  nd internal coontrols.

     Key Contract Provisions
      MLEC was not in comp   pliance with the
                                          t current ccontract provvision regard
                                                                              ding the use
                                                                                         e of
                  enue for app
      electric reve          proved purpo oses. Speciifically, we fo
                                                                   ound MLEC:

      1. Pledged
               d electric fun
                            nds to guarantee United States Dep  partment of A
                                                                            Agriculture R
                                                                                        Rural
         Develop
               pment (Rura  al Developmeent) loans to
                                                    o its customeers.

      2. Disburs
               sed electric funds
                            f      for eco
                                         onomic deve
                                                   elopment in FFYs 2009 annd 2010 andd
         included
                d amounts fo or economic c developme
                                                   ent in the FY
                                                               Y 2010 capita
                                                                           al budget.

      TVA manag  gement has stated they are planning g to recomm  mend the TVA  A Board form
                                                                                           mally
      approve theese uses of electric
                             e        reve
                                         enues. Howe  ever, if this a
                                                                    approval is n
                                                                                not granted, we
      consider the
                 ese to be no
                            oncomplianc  ce issues tha
                                                     at should be discontinue  ed.
                                                                                                  Page i

                                 TVA RESTRIICTED INFORM
                                                      MATION
                 Audit
                 A     201
                         10-13659 – Distributor Aud
                                                  dit of Meriiwether
                            Lewis Electric Cooperaative
                                      EXE
                                        ECUTIVE S
                                                SUMMAR
                                                     RY

      Although MLEC
                M       was geenerally in co
                                           ompliance w
                                                     with the othe
                                                                 er two key co
                                                                             ontract provissions
      (proper reporting of electric sales and
                                          a nondiscrrimination in providing power), we no  oted
                 ng: (1) energy and dema
      the followin                        and amountss had been rreported incoorrectly to TV
                                                                                           VA
      within two rate
                 r    classific
                              cations and (2)
                                           ( a few cusstomer misclassificationss.

     Other Issuees
      MLEC’s pollicies requireed customerr contracts b
                                                     be obtained ffor accountss that exceed
                                                                                          d
      certain powwer demand thresholds. MLEC could    d not provide contract documentatio on for
      one of the customer’s
                 c            accounts
                              a        we tested. We e also found MLEC could   d strengthen
                                                                                          n its
      internal con
                 ntrols over doocumentatio
                                         on of the ML EC Board of Directors’ fformal approoval
      of changes to retail rate
                              es and demaand thresholld criteria.

  Wee also identiffied two areaas where TV VA’s oversigh  ht of distribu
                                                                       utors could bbe enhanced d.
  Thee issues, add dressing (1) discontinuinng the practiice of allowin ng distributo
                                                                                    ors to pledge
                                                                                                e
  electric system funds as gu  uarantees fo or customer e economic de   evelopment loans with R Rural
  Devvelopment anda commun     nicating this to
                                             t all affecte
                                                         ed distributorrs and (2) thhe lack of
  guidance relate ed to permittted expendittures, have b  been reporte ed in previouus OIG
  disttributor audit reports, an
                               nd TVA has agreed
                                             a       to ta ke correctivee action on tthese issuess.

What the
     t OIG Re
            ecommend
                   ds

  Wee make 6 spe ecific recommendations in this reporrt that requirre MLEC acttion and
  rec
    commend TV  VA’s Senior Vice
                             V    Presideent, Policy a nd Oversighht, work with MLEC to
  resolve them. These recom  mmendation ns generally relate to (1) complying w  with power
    ntract provisions, (2) rem
  con                        mediating cla
                                         assification isssues, and ((3) strengthe
                                                                                ening interna
                                                                                            al
  con
    ntrols.

  Wee also make 1 recommen  ndation to TVVA. Specificcally, TVA’s Senior Vice
                                                                            e President,
  Pollicy and Ove
                ersight, shou
                            uld determine
                                        e any amoun  nts due to T
                                                                TVA associatted with
  acc
    counts that should
                s       have been reportted as GSA Part 2 and a adjust invoices appropriaately.

MLEC Commentts

  MLEC did not provide
                   p       comments to address the sp   pecific findings and reco
                                                                                ommendation    ns in
  ourr draft audit report.
                   r       Inste
                               ead, in its res
                                             sponse to ou
                                                        ur draft repoort, MLEC sttated it objeccted
  to the OIG audit for various s reasons, which
                                            w    includee:

     MLEC had filed volume              al reports to TVA within the 73 year unbroken re
                            es of financia                                              ecord
      of purchasing power fro
                            om the Agen ncy.
     An audited annual repo
                           ort was comp
                                      pleted for 20
                                                  011.
     MLEC files significant reporting
                               r         to the
                                            t United S States Deparrtment of Ag
                                                                              griculture’s R
                                                                                           Rural
      Utilities Serrvice, which had just commpleted its o
                                                        own audit of MLEC.

                                                                                               P
                                                                                               Page ii

                                TVA RESTRIICTED INFORM
                                                     MATION
                 Audit
                 A     201
                         10-13659 – Distributor Aud
                                                  dit of Meriiwether
                            Lewis Electric Cooperaative
                                     EXE
                                       ECUTIVE S
                                               SUMMAR
                                                    RY

     MLEC is TV
               VA’s only cooperative distributor nott subject to rretail rate reg
                                                                                gulation by tthe
      Agency by virtue of its current
                              c       wholesale powe
                                                   er contract.

  MLEC further stated
                 s      it had complied with the OIG’ss repeated rrequest for in
                                                                               nformation
  beccause the MLEC Board of  o Directors did not wan t to appear tto have anytthing to hide
                                                                                           e.
  Howwever, MLEC stated it maintains
                             m          the
                                          e OIG has noo standing wwhatsoever tto audit MLE EC’s
  reta
     ail operations, and the TVA
                             T    relations
                                          ship ends at the wholesa ale delivery point.

    e Appendix B for MLEC’’s complete response.
  See

Audito
     or’s Respo
              onse to ML
                       LEC’s Comments

  Whhile we appreeciate MLEC C’s objectionns to our aud dit, we respe
                                                                    ectfully disag
                                                                                 gree. TVA’s
  pow
    wer contract with MLEC specifically provides forr the duly au   uthorized age ents of TVA to
  hav
    ve free access at all reassonable time es to all boo ks and records relating to electric
  sys
    stem operatio ons. Although MLEC is no longer s ubject to rettail rate regu  ulation by TV
                                                                                             VA,
  the 2004 agree ement betwe een TVA and  d MLEC did not release MLEC from all other
    ovisions of th
  pro            he original po
                              ower contrac ct, which incclude (1) pro
                                                                    oper reporting of electric
  sale
     es, (2) nondiscriminationn in providing power, an nd (3) use off electric reve
                                                                                  enue for
  app
    proved purpo  oses.

TVA Managemen
    M       nt’s Comm
                    ments

  TVA A managem ment generallly agreed with our recom mmendationss except for the
  rec
    commendatio  on regardingg the proper accounting for economiic development expendittures.
  Also, in response to a recoommendation  n we made rregarding the  e formal doccumentation of
    cisions and approvals
  dec             a         byy the MLEC Board relate  ed to resale rate components and
  amounts, TVA managemen      nt stated the
                                          ey currently h
                                                       have no con ntract mechaanism to man ndate
  the recommend   ded requirem
                             ments related to MLEC’ss resale rate es except witth respect to
                                                                                           o
  enfforcing the nondiscriminaation require
                                          ement.

  See
    e Appendix C for TVA’s complete re
                                     esponse.

Audito
     or’s Respo
              onse to TVA
                        A Managem
                                ment’s Com
                                         mments

  As discussed in
                n detail in the accompan   nying report, we disagree with TVA managemen       nt’s
    mments rega
  com           arding MLEC   C’s classifica
                                           ation of econ nomic develo opment expeenditures ass
  ope
    erating expe
               enses instead  d of nonoperating expen    nses. Also, TVA will nott be able to
  ade
    equately enfforce the pow wer contractts nondiscrim mination requirement unless MLEC
  maintains docu
               umentation re   egarding its retail rate coomponents and amountts (i.e., energ gy
    age and dem
  usa          mand thresho   olds, amoun  nts to chargee, etc.). Succh documenttation is
  nec
    cessary to ve             es charged to end users are correct and nondisccriminatory.
                 erify the rate


                                                                                             P
                                                                                             Page iii

                                TVA RESTRIICTED INFORM
                                                     MATION
Office of the Inspector General                                                                  Audit Report


BACKGROUND
Meriwether Lewis Electric Cooperative (MLEC) is a distributor for Tennessee
Valley Authority (TVA) power based in Centerville, Tennessee, with revenues
from electric sales to end use customers of approximately $69 million in fiscal
year (FY) 2010. Prior to April 1, 2011,1 TVA relied on distributors to self-report
customer usage and subsequently the amount owed to TVA (Schedule 1).
Customers are generally classified as residential, commercial, manufacturing,
and lighting. Within these classes are various rate classifications based on the
customer type and usage. Table 1 shows the customer mix for MLEC as of
June 2010.

                            MLEC’s Customer Mix as of June 2010
                                               Number of                                  Kilowatt Hours
         Customer Classification                                       Revenue
                                               Customers                                       Sold
    Residential                                       29,071             $40,808,777           432,021,272
    General Power – 50 Kilowatt (kW)
                                                        4,965               8,283,716           67,867,083
    and Under (Commercial)
    General Power – Over 50 kW
                                                          346              19,056,277          227,296,925
    (Commercial or Manufacturing)
    Street and Athletic                                    58                 336,320             3,029,147

    Outdoor Lighting2                                     210                 926,691             9,976,298

     Total                                            34,650             $69,411,781           740,190,725
                                                                                                     Table 1

TVA’s distributors are required to establish control processes over customer
setup, rate application, and measurement of usage to ensure accurate and
complete reporting to TVA. MLEC, like many other distributors, outsourced its
billing to a third-party processor. MLEC used R & R Support systems to establish
and set up new customers, input customer meter information, perform the monthly
billing process, and maintain customer account information. Additionally, R & R
Support provided MLEC with management reporting capabilities (e.g., exception
reports) designed to ensure the accuracy and completeness of the customer
invoice and the Schedule 1 provided to TVA. Invoice processing was outsourced
to a third party, Total Billing. All other accounting and finance responsibilities are
handled by MLEC, which has a 13-member Board of Directors who provide
oversight and a President and Chief Executive Officer and management team
who manage the daily activities.


1
     On April 1, 2011, TVA moved from distributors self-reporting customer usage to billing distributors based
     on actual energy and demand takings using meter readings from the wholesale delivery points.
2
     The “Number of Customers” represents those customers who only have Outdoor Lighting accounts at
     June 30, 2010. In addition, another 9,597 customers had Outdoor Lighting accounts as well as accounts
     for other services. However, the totals for “Revenue” and “Kilowatt Hours Sold” include both categories
     of Outdoor Lighting customers.
Audit 2010-13659                                                                                       Page 1

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                      Audit Report


Granting of Authority to Set Retail Rates
In 2002, TVA’s Board approved and made available to distributors six wholesale
power contract flexibility options. One of the options terminated TVA’s contract
authority and obligations regarding distributors’ retail rates. In 2004, MLEC and
TVA agreed to a wholesale power contract supplement that granted MLEC
authority to set its own retail rates. Three other distributors, Knoxville Utilities
Board, Memphis Light, Gas and Water, and Scottsboro Electric Power Board,
have also been granted this authority by TVA. As a result, these four distributors
have the authority to determine the retail rates charged to their customers with no
or limited oversight by TVA. The TVA Board, however, did not relinquish the
responsibility to ensure (1) the power purchased is sold and distributed to the
ultimate consumer without discrimination among consumers of the same class,
and (2) no discriminatory rate, rebate, or other special concession will be made or
given to any consumer. The 2004 supplemental agreement with MLEC did not
specifically state why the authority to determine the retail rates charged to
customers with no or limited oversight by TVA was granted to MLEC. However,
the supplemental agreements with Scottsboro, Knoxville, and Memphis, state the
option was granted (1) because the electric utility industry was undergoing
changes and restructuring and (2) to prepare for the prospect of legislation further
altering the industry and the relationship between TVA and its distributors.

Cash Position and Rate Changes
As of June 30, 2010, MLEC had a 5.17 percent cash ratio3 before considering
planned FY 2011 capital expenditures, which is within TVA’s established
guidelines for adequate cash reserve ratios of 5 to 8 percent. MLEC had
$11,808,291 in planned capital expenditures for FY 2011 and stated their
preference was to pay for as much of these expenditures as possible from cash
reserves, which was $3,307,595 at June 30, 2010. MLEC also had $15 million in
Rural Utilities Service loans available to finance capital expenditures, which
would provide full coverage of the planned capital expenditures. As of July 2011,
MLEC had not exercised any portion of the loan.

According to MLEC records, from FYs 2006 to 2010, MLEC had rate increases in
2005, 2006, 2008, and 2009 and one rate decrease in 2006. Table 2, as shown
on the following page, shows the rate increases/decreases enacted by MLEC
and the cash position and cash ratio at June 30 prior to the effective date of the
rate change.




3
    TVA reviews the cash ratios of distributors as part of its regulatory rate review function. Cash ratio is
    calculated as follows:                         Cash + Cash Equivalents                                    s
                           Total Variable Expenses (Operations and Maintenance + Purchased Power)
Audit 2010-13659                                                                                          Page 2

                                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                                              Audit Report


               MLEC’s Rate Changes, Cash Position, and Cash Ratio
       Cash on Hand                 Cash and Cash                   Rate Increase/Decrease5
     Equivalent to an 8%             Equivalents4
         Cash Ratio               and Cash Ratio (CR)           Percent            Effective Date
                                        $785,680
          $3,966,554                                              7.8%               10/01/2005
                                      (CR = 1.58%)
                                        $785,680
          $3,966,554                                              8.0%                4/01/2006
                                      (CR = 1.58%)
                                        $3,392,026
          $4,388,857                                             (4.5)%              10/01/2006
                                       (CR = 6.18%)
                                        $7,430,659
          $4,950,517                                             20.0%               10/01/2008
                                      (CR = 12.01%)
                                        $4,120,946
          $5,577,354                                              9.0%               10/01/2009
                                       (CR = 5.91%)
                                                                                                Table 2

Discussions with MLEC management indicated its operating philosophy is
generally conservative. MLEC prefers to keep enough cash on hand to meet the
next month’s TVA power invoice, and any cash on hand beyond this amount is
invested in Cooperative Finance Corporation commercial paper.

FINDINGS
Our audit of TVA’s power contract with MLEC determined:

    MLEC was not in compliance with the key contract provision regarding the
     use of electric revenue for approved purposes. Although MLEC generally
     complied with the other two key provisions, we noted issues regarding
     (1) incorrect reporting to TVA of energy and demand amounts within two rate
     classifications and (2) a few customer misclassifications.
    MLEC could strengthen internal controls over documentation of customer
     contracts and MLEC Board of Directors’ formal approval of changes to retail
     rates and demand threshold criteria.
    TVA’s oversight of distributors could be enhanced.

The following provides a detailed discussion of our findings.




4
    The cash and cash equivalents and cash ratio were computed based on information from MLEC’s annual
    report as of June 30 prior to the effective date of the rate change.
5
    This rate increase/decrease information was provided to the Office of the Inspector General by MLEC
    management. In the documentation received, some rates indicate whether the rate increase/decrease
    did or did not include TVA’s Fuel Cost Adjustment and others did not. Because MLEC is self-regulated,
    TVA does not have control over the rate increases/decreases enacted by the distributor.
Audit 2010-13659                                                                                  Page 3

                                   TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                  Audit Report


USE OF ELECTRIC REVENUE FOR UNAPPROVED PURPOSES
Our review of MLEC’s use of revenue found MLEC had (1) pledged $647,500 in
electric system funds to guarantee United States Department of Agriculture Rural
Development6 (Rural Development) loans to customers, and (2) disbursed
$143,518 in FY 2009 and 2010 for economic development and community
involvement and included $33,500 for economic development and community
involvement in its FY 2010 budgets.

As discussed below, these uses of electric funds fall outside the current power
contract provisions for approved uses. More specifically, section 6 of the power
contract, “Use of Revenues,” defines approved uses of revenues from electric
system operations, including any surplus, as: (1) operating expenses, (2) debt
service, (3) reasonable reserves for renewals, replacements, and contingencies
and cash working capital adequate to cover operating expenses for a reasonable
number of weeks, and (4) new electric system construction or the retirement of
debt prior to maturity. In addition, Section 1(a) of the power contract, “Schedule of
Terms and Conditions,” prohibits furnishing, advancing, lending, pledging, or
otherwise diverting electric system funds and revenues to nonelectric purposes.

    Pledging Of Electric System Funds Not Allowed by the Power Contract
     At June 30, 2010, MLEC had pledged approximately $647,500 in electric
     system funds to guarantee Rural Development loans to customers. This
     amount included approximately $400,000 for grant funds loaned to customers
     and $247,500 for two intermediary loans MLEC would be obligated to pay to
     Rural Development should the customers default. We estimated the total
     electric funds at risk7 at June 30, 2010 would reduce the cash ratio from
     5.17 percent to 4.16 percent before planned FY 2011 capital expenditures.
    Disbursing Electric Funds for Economic Development Not Allowed by
     the Power Contract
     MLEC assists the counties and communities in the service area by budgeting
     for and disbursing electric funds to support economic development. MLEC’s
     FY 2010 budget included a total of $33,500 for economic development and
     community involvement, and according to MLEC personnel, the funds are
     disbursed only upon request. MLEC’s trial balances for the audit period
     indicate total disbursements were $75,200 in FY 2009 and $68,318 in
     FY 2010 for economic development and community involvement and posted
     as operating expenses.

     In addition to being an unallowable use of funds per the power contract, under
     section 1(b) of the contract “Schedule of Terms and Conditions,” MLEC is
     required to keep the electric system general books of accounts in accordance

6
    Rural Development is a division of the United States Department of Agriculture that administers the Rural
    Economic Development Loan and Grant Program.
7
    We consider electric funds at risk to be revenues of the electric system that are or could be diverted for
    nonelectric purposes in violation of the power contract.
Audit 2010-13659                                                                                      Page 4

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                 Audit Report


     with the Federal Energy Regulatory Commission Uniform System of Accounts.
     According to Federal Energy Regulatory Commission, payments or donations
     for charitable, social or community welfare purposes are nonoperating
     expenses and should be recorded in Account 426.1 (Donations). MLEC
     currently records these expenditures in operating expense accounts 9083,
     9089, and 9090.

In response to similar findings in a previous audit, TVA management agreed
these practices are not expressly allowed under the power contract. However,
management stated they plan to recommend the TVA Board formally approve a
use of revenues policy, which would expressly approve distributors
(1) participation in the United States Department of Agriculture Rural Economic
Development and Grant Program and (2) use of electric system revenues for
economic development. If the TVA Board approves this policy, this practice may
no longer be a violation of the power contract provisions. However, if this
approval is not granted, we consider these to be noncompliance issues that
should be discontinued.

IMPROPER REPORTING OF ELECTRIC SALES AND POTENTIAL
DISCRIMINATION IN PROVIDING POWER TO CUSTOMERS
During our review of MLEC’s billing data, we identified three customer
classification issues that could impact the (1) proper reporting of electric sales
and/or (2) ability to ensure nondiscrimination in providing power to members of
the same rate class.8 The specific issues we found were:
    Energy (kWh) and demand9 (kW) amounts were reported to TVA using retail
     schedule rather than wholesale schedule criteria for certain accounts within
     two General Power Rate – Schedule GSA rate classifications.
    Commercial accounts were misclassified within the GSA rate classifications.
    Commercial accounts were misclassified as residential.



8
    Section 2 Resale Rates subsection (a) of the power contract between TVA and MLEC, dated March 31,
    2004, states “…power purchased hereunder shall be sold and distributed to the ultimate consumer
    without discrimination among consumers of the same class and that no discriminatory rate, rebate, or
    other special concession will be made or given to any consumer.”
9
    Demand is a measure of the rate at which energy is consumed. The demand an electric company must
    supply varies with the time of day, day of the week, and the time of year. Peak demand seldom occurs
    for more than a few hours or fractions of hours each month or year, but electric companies must maintain
    sufficient generating and transmission capacity to supply the peak demand. Demand charges represent
    the high costs electric companies pay for generating and transmission capacity that sits idle most of the
    time. Demand charges are based on the amount of energy consumed in a specified period of time
    known as a demand interval. Demand intervals are usually 15 or 30 minutes. (Engineering Tech Tips,
    December 2000, Dave Dieziger, Project Leader, United States Department of Agriculture Forest Service,
    Technology & Development Program, http://www.fs.fed.us/eng/pubs/htmlpubs/htm00712373/index.htm.)
    For TVA distributors, the commercial and manufacturer Schedules of Rates and Charges direct that
    metered demand be calculated as “the highest average during any 30-consecutive-minute period of the
    month of the load metered in kW.”
Audit 2010-13659                                                                                     Page 5

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                       Audit Report


Improper Reporting Of Electric Sales Using Retail Criteria
Our review of MLEC billing data identified 104 commercial accounts potentially
misclassified as GSA Part 1 rather than GSA Part 2 based on the energy and
demand threshold criteria in the Wholesale General Power Rate – Schedule.10
Upon investigation we found this was a result of MLEC reporting accounts to
TVA based on their retail rate classification rather than the classification criteria
of the Wholesale Rate Schedule.

As previously stated, under the 2004 supplemental agreement, MLEC was
granted authority to determine the components of its retail rates (i.e., energy
usage and demand thresholds, amounts to charge, etc.). In July 2007, the MLEC
Board formally approved changing the criteria for classifying GSA Part 1 and GSA
Part 2 accounts using a 12-month rolling average of energy usage rather than
only the current month’s energy usage. During our site visit, MLEC personnel
stated the demand threshold was similarly changed.

Although MLEC was granted authority to change their retail rates and
components, the revised wholesale power contract did not change the
Schedule 1 reporting requirements (i.e., usage and demand for the various rate
classifications.) Therefore, demand should have been reported on the monthly
Schedule 1 for all accounts meeting the wholesale GSA Part 2 schedule criteria.

We could not determine the total monetary effect for this systemic issue because
historical information for rate classifications was not maintained in MLEC’s billing
system. We also could not tell if an account had been classified at a different
rate earlier in the audit period because the account’s classification as of June
2010 was listed for every month of the audit period in the billing data. However,
because of the similarity in the GSA Part 1 and Part 2 pricing structure and the
number of misclassified accounts, the monetary impact to TVA and MLEC would
not be significant.




10
     Under the Wholesale General Power Rate – Schedule GSA, customers are classified based on the
     following requirements:
      GSA Part 1 – If (a) the higher of (i) the customer’s currently effective contract demand, if any, or (ii) its
         highest billing demand during the latest 12-month period is not more than 50 kW and (b) the
         customer’s monthly energy takings for any month during such period do not exceed 15,000 kWh.
      GSA Part 2 – If (a) the higher of (i) the customer’s currently effective contract demand or (ii) its
         highest billing demand during the latest 12-month period is greater than 50 kW but not more than
         1,000 kW or (b) the customer’s billing demand is less than 50 kW and its energy takings for any
         month during such period exceed 15,000 kWh.
      GSA Part 3 – If the higher of (a) the customer’s currently effective contract demand or (b) its highest
         billing demand during the latest 12-month period is greater than 1,000 kW.
Audit 2010-13659                                                                                            Page 6

                                       TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                    Audit Report


Accounts Misclassified Within Retail GSA Schedule
As previously mentioned, MLEC changed the energy and demand threshold
criteria for retail GSA Part 2 accounts. Based on the new threshold criteria, we
found 9 accounts out of 109 (8.3 percent) initially identified as potentially
misclassified were incorrectly assigned within the 3 parts of the retail GSA
schedule during a portion of the audit period. Of these 9 accounts:

     5 accounts should have been classified as retail GSA Part 2 rather than GSA
      Part 1 based on the 12-month rolling average for exceeding 15,000 kWh
      and/or 50 kW. 
     2 accounts should have been classified as retail GSA Part 3 rather than a
      GSA Part 2 based on actual demand or contract demand.
     2 accounts should have been classified as retail GSA Part 2 rather than GSA
      Part 3 based on a previous actual demand or contract demand.

It should be noted that MLEC’s billing system did not automatically reclassify
accounts based on energy or demand criteria. The billing system generated
exception report(s) indicating accounts that exceeded or dropped below the
threshold criteria. MLEC personnel reviewed the exception reports and manually
reclassified accounts. The low percentage of misclassified accounts indicates
MLEC personnel review and reclassify accounts on a consistent basis. The
monetary effect of the misclassifications identified would not be significant to
MLEC or TVA. MLEC has corrected all but one of the accounts, and it is being
reviewed.

Accounts Misclassified as Residential
We found 744 customer accounts that appeared to be improperly classified as
residential based on the account name. At our request, MLEC reviewed these
accounts and determined 7 accounts (0.94 percent) classified under the
Residential Rate – Schedule RS11 should have been classified under the
commercial GSA schedule. These accounts consisted of service to a commercial
business or other separately metered structures, such as shops, offices, cell
towers, etc., which do not qualify as a single-family dwelling. The monetary
impact of these misclassifications would not be significant to MLEC or TVA.
MLEC personnel indicated the accounts will be reclassified as appropriate.




11
     Under the Residential Rate – Schedule RS, customers are classified based on the following requirement:
     “This rate shall apply only to electric service to a single-family dwelling (including its appurtenances if
     served through the same meter), where the major use of electricity is for domestic purposes such as
     lighting, household appliances, and the personal comfort and convenience of those residing herein.”
Audit 2010-13659                                                                                        Page 7

                                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                        Audit Report


OTHER ISSUES
We identified two areas where MLEC could strengthen its internal controls over
documentation:

   MLEC’s policies required customer contracts be obtained for accounts that
    exceed certain power demand thresholds. MLEC could not provide contract
    documentation for one of the customer’s accounts we tested.
   The MLEC Board of Directors’ formal approval of changes to retail rates and
    demand threshold criteria was not documented in the minutes.

Customer Contract Not On File
The original power contract required all customers who exceed 50 kW per month
to sign a formal contract. In 2004, MLEC was granted authority to determine the
components of its retail rates (i.e., energy usage and demand thresholds,
amounts to charge, etc.) and decided to remain with the 50 kW requirement for
customer contracts. Each customer contract includes a contract demand that is
used in placing the customer in the correct classification. Contract demand is
also used in calculating the customer’s billed demand and minimum bill in
addition to determining the correct rate classification; therefore, having the
required contract documentation is necessary to support the classification
assigned and the rates charged.

To determine compliance with MLEC’s policy, we selected a judgmental sample
of 34 customer accounts from the 292 accounts that should have a contract.
MLEC did not have a customer contract on file for 1 of the 34 sampled customer
accounts (2.94 percent). MLEC personnel subsequently informed us a review of
accounts that should have a contract had been performed in order to ensure
contracts were in place and up to date.

MLEC Board Approval Not Formally Documented
MLEC could not provide documentation indicating the MLEC Board formally
approved (1) increasing the FY 2010 retail rates and (2) changing the demand
threshold criteria for the retail GSA Part 2 rate classification.

The August 2009 Board Meeting Minutes state the MLEC Board was informed
TVA had notified distributors of a wholesale base increase that would be about
9 percent and become effective October 1, 2009. However, unlike the
October 2008 retail rate increase that was formally approved by the MLEC Board
and documented in the Board Minutes, the August 2009 Board Minutes do not
indicate the MLEC Board formally approved to pass the 2009 rate increase
through to the end use customers. MLEC’s retail rates were increased effective
October 1, 2009.




Audit 2010-13659                                                            Page 8

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                             Audit Report


As mentioned previously, after MLEC was granted the authority to determine
and/or modify components of its retail rates via the 2004 supplement, the MLEC
Board formally approved to change the energy threshold requirement for GSA
Part 2 accounts in July 2007. We were informed the demand requirement for
GSA Part 2 accounts was similarly changed; however, we were not able to find
documentation indicating the MLEC Board formally approved changing the
demand threshold requirement. We verified both the energy and demand
changes were implemented in the billing system. All MLEC Board approvals
should be documented to provide evidence supporting the approval.

TVA OVERSIGHT OPPORTUNITIES
We identified two areas where TVA’s oversight of distributors could be enhanced.
The issues, addressing (1) discontinuing the practice of allowing distributors to
pledge electric system funds as guarantees for customer economic development
loans with Rural Development and communicating this to all affected distributors
and (2) the lack of guidance related to permitted expenditures, have been
reported in previous Office of the Inspector General (OIG) distributor audit reports,
and TVA has agreed to take corrective action on these issues.

Full discussion of the previously reported issues and TVA’s planned actions can
be found in prior OIG distributor audit reports12 on our Web site, www.oig.tva.gov.

RECOMMENDATIONS
We make 6 specific recommendations in this report that require MLEC action
and recommend TVA’s Senior Vice President, Policy and Oversight, work with
MLEC to resolve them. These recommendations generally relate to (1) complying
with power contract provisions, (2) remediating classification issues, and
(3) strengthening internal controls. Specifically, MLEC should:13

1. Discontinue or obtain TVA approval for the practice of pledging electric funds
   to guarantee Rural Development loans to customers.

      TVA Management’s Comments – TVA management agreed with the
      recommendation and stated they plan to recommend the TVA Board formally
      approve a use of revenues policy, which expressly approves distributor
      participation in the United States Department of Agriculture Rural Economic
      Development Loan and Grant Program. See Appendix C for TVA’s complete
      response.



12
     November 16, 2011 – Distributor Audit of Volunteer Energy Cooperative 2010-13285, May 15, 2009 –
     Distributor Review: Lewisburg Electric System 2008-12040.
13
     As discussed in the executive summary, MLEC did not provide comments to address the specific
     findings and recommendations. Instead, MLEC’s response to our draft report only discussed its
     objections to the OIG audit. See Appendix B for MLEC’s complete response.
Audit 2010-13659                                                                                 Page 9

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                          Audit Report


    Auditor’s Response – As stated in the body of the report, if the TVA Board
    approves this use of revenues policy, this practice may no longer be a
    violation of the power contract provisions. However, if this approval is not
    granted, we consider these to be noncompliance issues that should be
    discontinued.

2. Discontinue or obtain TVA approval for the practice of using electric funds for
   economic development.

    TVA Management’s Comments – TVA management agreed with the
    recommendation and stated it plans to recommend the TVA Board formally
    approve a use of revenues policy, which approves using electric funds for
    economic development expenses under certain circumstances. See
    Appendix C for TVA’s complete response.

    Auditor’s Response – As stated in the body of the report, if the TVA Board
    approves this use of revenues policy, this practice may no longer be a
    violation of the power contract provisions. However, if this approval is not
    granted, we consider these to be noncompliance issues that should be
    discontinued.

3. Properly account for economic development expenditures as nonoperating
   expenses in Account 426.1 (Donations).

    TVA Management’s Comments – TVA management disagreed with the
    recommendation and stated an account provided for under Section 426.1
    (Donations) of the Federal Energy Regulatory Commission should only
    include “. . . payments or donations for charitable, social or community
    welfare purposes.” TVA management also stated it does not view reasonable
    economic development expenditures as significantly serving welfare
    purposes; rather, TVA views such economic development expenditures as
    providing a benefit to the electric system by way of promoting or retaining the
    use of utility services by present and prospective customers. Accordingly,
    TVA management views accounts provided for under Section 912
    (Demonstrating and Selling Expenses) as the most proper account to account
    for economic development expenditures and will discuss classifying
    reasonable economic development expenditures in Account 912 with MLEC.
    See Appendix C for TVA’s complete response.

    Auditor’s Response – One of the responsibilities mandated to TVA via the
    TVA Act is economic development in the valley. Consequently, TVA has
    specific organizations dedicated to economic development, and costs
    associated with economic development are considered routine, ongoing, and
    normal day-to-day expenses that are necessary for conducting business
    (operating expenses). However, the distributors do not have this same
    mandated responsibility per the power contract. Distributors’ electric funds
    spent for economic development are not routine, ongoing, and normal

Audit 2010-13659                                                            Page 10

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                          Audit Report


    day-to-day expenses, and therefore are nonoperating rather than operating
    expenses.

    As previously mentioned, TVA management plans to recommend the TVA
    Board formally approve a use of revenues policy, which expressly approves
    distributors using electric funds for economic development expenses under
    certain circumstances. However, the OIG maintains that distributors’
    expenditures for economic development are nonoperating expenses that
    should be reported as “Donations” in Account 426.1 rather than reported as
    “Demonstrating and Selling Expenses” in operating expense Account 912. If
    economic expenditures were truly operating expenses for distributors, TVA
    management would have no need to request TVA Board approval for these
    expenditures because operating expenses are expressly allowed as uses of
    revenue under the power contract.

4. Review commercial and residential accounts identified as misclassified and
   correct misclassifications as appropriate. 

    TVA Management’s Comments – TVA management agreed electric service
    should be provided in accordance with the availability provisions of the
    applicable rate schedule. TVA management also stated MLEC will review the
    commercial and residential accounts that are misclassified and reclassify
    accounts to the appropriate rate schedule. See Appendix C for TVA’s
    complete response.

    Auditor’s Response – The OIG concurs with TVA’s planned actions.

5. Continue to review customer accounts, and obtain and maintain properly
   executed effective customer contracts for all customers with demand in
   excess of 50 KW in accordance with MLEC policy.

    TVA Management’s Comments – TVA management agreed MLEC should
    execute retail contracts for customers with contract demand greater than
    50 kW in accordance with the written contract requirement of the rate
    schedule. TVA management will discuss obtaining executed contracts for
    customers with demand in excess of 50 kW with MLEC. See Appendix C for
    TVA’s complete response.

    Auditor’s Response – The OIG concurs with TVA’s planned actions.

6. Formally document all decisions and approvals by the MLEC Board related to
   resale rate components and amounts (i.e., energy usage and demand
   thresholds, rate increases or decreases, amounts to charge, etc.) in the future.

    TVA Management’s Comments – TVA management agreed such
    documentation is good business practice and encouraged such
    documentation. However, TVA management stated the March 2004

Audit 2010-13659                                                            Page 11

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                            Audit Report


    “flexibility agreement” eliminated the Power Contract provisions under which
    TVA previously regulated the design and level of MLEC’s resale rates and
    related processes. TVA management also stated that it currently has no
    contract mechanism by which to mandate the recommended requirements
    related to MLEC’s resale rates except with respect to enforcing the
    nondiscrimination requirement of the Power Contract and TVA Act. See
    Appendix C for TVA’s complete response.

    Auditor’s Response – Because the authority to design and approve the
    retail rate components and amounts was granted to MLEC, in order for TVA
    to verify the rates charged to end users are correct and nondiscriminatory, it
    is necessary for MLEC to (1) completely document all retail rate components
    and amounts (i.e., energy usage and demand thresholds, amounts to charge,
    etc.), (2) document the formal approval of those retail rate components and
    amounts, and (3) retain the formally approved documentation of those retail
    rate components and amounts.

TVA’s Senior Vice President, Policy and Oversight, should:

7. Work with MLEC to determine any amounts due to TVA associated with
   accounts that should have been reported as GSA Part 2 and adjust invoices
   appropriately. 

    TVA Management’s Comments – TVA management agreed with the
    recommendation and will work with MLEC to determine if funds may be owed
    to TVA as a result of misclassification. TVA management stated it
    understands some of the data to calculate this amount may not be readily
    available and so the cost benefit of trying to estimate this data as well as the
    accuracy of the data obtained will also be evaluated before moving forward.
    If TVA is able to determine these amounts, invoices will be adjusted
    appropriately. See Appendix C for TVA’s complete response.

    Auditor’s Response – The OIG concurs with TVA’s planned actions.




Audit 2010-13659                                                              Page 12

                                  TVA RESTRICTED INFORMATION
                                                                              APPENDIX A
                                                                               Page 1 of 2

OBJECTIVE, SCOPE, AND METHODOLOGY
This audit was initiated as a part of our annual workplan. The objective was to
determine compliance with key provisions of the power contract between the
Tennessee Valley Authority (TVA) and Meriwether Lewis Electric Cooperative
(MLEC) and not to assess the distributor’s or TVA’s system of internal controls.
Therefore, controls associated with contract provisions listed below were not
tested as part of this audit. The key contract provisions include:

    Proper reporting of electric sales by customer class to facilitate proper
     revenue recognition and billing by TVA.
    Nondiscrimination in providing power to members of the same rate class.
    Use of revenues, including any surplus, for approved purposes, such as:
      Operating expenses
      Debt service
      Reasonable reserves for renewals, replacements, and contingencies

To achieve our objective, we:

    Obtained electronic billing data for the audit period and created a database
     for use in performing analytical testing. To validate the reliability of the billing
     data, we compared the data to the information reported to TVA on the
     Schedule 1. No significant differences were noted; therefore, the data was
     deemed reliable.
    Performed queries on the billing data to identify classification, metering, and
     contract compliance issues. Reviewed results of the queries and, using
     nonstatistical sampling, selected accounts for further analysis and follow-up to
     determine whether misclassification, metering issues, or noncompliance with
     contract requirements occurred. Since nonstatistical sampling was used,
     projection of the results was not appropriate.
    We selected the following judgmental sample (based on contract demand
     values and their relation to TVA requirements and stricter guidelines adopted
     by MLEC) to review MLEC’s customer contracts and supporting
     documentation for the 292 accounts with contract demand equal to or greater
     than 50 kW, as shown in Table 1.

                                          Number                                   Percent of
                 Criteria                                    Comment
                                          Selected                                 Population
Accounts with contract demand > = 1 MW               All accounts meeting the
                                             10                                      3.4%
(TVA’s requirement)                                  TVA criteria were selected.
                                                     Each account had a
Accounts with contract demand > = 50 kW
                                             24      different contract demand       8.2%
(MLEC’s requirement)
                                                     amount.
    Total                                    34                                      11.6%
                                                                                       Table 1

                              TVA RESTRICTED INFORMATION
                                                                       APPENDIX A
                                                                        Page 2 of 2

OBJECTIVE, SCOPE, AND METHODOLOGY (cont.)
   Determined through inquiry and review of documentation whether MLEC had
    any nonelectric, system-related business interests supported by electric
    system funds.
   Obtained disbursements listing for the audit period. Reviewed and analyzed
    disbursements to identify instances where electric system funds may have
    been used for purposes not allowed under the TVA power contract. Used
    nonstatistical sampling to select questionable disbursements for further
    analysis and follow-up. Since nonstatistical sampling was used, projection of
    the results was not appropriate.
   Reviewed cash and cash equivalents in relation to planned capital
    expenditures and other business uses of cash.

When evaluating results of our audit work we used both qualitative and
quantitative factors when considering the significance of an item. For the
purposes of this audit the quantitative factor(s) to be considered in determining
an item’s significance were:

   If the dollar value of an error(s) and/or item of noncompliance with the
    contract exceeds 3 percent of the distributor’s average annual power cost
    during the audit period, or $1,627,973.92, it would be considered significant.
   In respect to the distributor’s unapproved use of revenues, we consider the
    following to be significant.
    - A negative cash ratio results after subtracting the distributor’s funds at risk
        during the audit period (loans extended or debts guaranteed with electric
        revenues) from the cash and cash equivalents balance at the end of the
        audit period.
    - Amounts expended by the electric department on behalf of a nonelectric
        department/operating unit during the audit period (without payback from
        the nonelectric department) exceed the rate increase amounts approved
        by TVA during the audit period.

The scope of the audit was for the period July 2008 through June 2010.
Fieldwork was conducted July through October 2011 and included visiting the
distributor’s corporate office in Centerville, Tennessee. This performance audit
was conducted in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.




                            TVA RESTRICTED INFORMATION
                             APPENDDIX B
                              Page 1 of 2




TVA RES
      STRICTED INF
                 FORMATION
                             APPENDDIX B
                              Page 2 of 2




TVA RES
      STRICTED INF
                 FORMATION
                             APPENDDIX C
                              Page 1 of 4




TVA RES
      STRICTED INF
                 FORMATION
                             APPENDDIX C
                              Page 2 of 4




TVA RES
      STRICTED INF
                 FORMATION
                             APPENDDIX C
                              Page 3 of 4




TVA RES
      STRICTED INF
                 FORMATION
                             APPENDDIX C
                              Page 4 of 4




TVA RES
      STRICTED INF
                 FORMATION
